Federal Communications Commission

             Office
              of the
      Inspector General

Semiannual Report to the Congress

 April 1, 2001—September 30, 2001




                       H. Walker Feaster III
                         Inspector General
                            Table of Contents



Introduction                                          3

Audits

         Reports                                      4

         Ongoing Activity                             11

         Consulting and Advisory Services             17

Specific Reporting Requirements of the
Inspector General Act                                 20

Attachments

         I. OIG Audit Reports With Questioned Costs   23

         II. OIG Audit Reports With Recommendations
            That Funds Be Put To Better Use           24

Investigations                                        25

IG Hotline                                            29

Legislation                                           30
                          INTRODUCTION
The Federal Communications Commission (FCC) is an independent regulatory
agency exercising authority delegated to it by Congress under the Communications
Act of 1934 as amended by the Telecommunications Act of 1996. The FCC is
charged with regulating interstate and international communications by radio,
television, wire, satellite and cable. The FCC’s jurisdiction covers the fifty states,
the District of Columbia, and U.S. possessions. The mandate of the FCC under the
Communications Act is to make available to all people of the United States a rapid,
efficient, nationwide, and worldwide wire and radio communication service. The
FCC performs four major functions to fulfill this charge:

•   Spectrum allocation;
•   Creating rules to promote fair competition and protect consumers where
    required by market conditions;
•   Authorization of service; and
•   Enforcement.

The Chairman and four Commissioners are appointed by the President                and
confirmed by the Senate.

Michael Powell was designated as Chairman on January 22, 2001. Kathleen Q.
Abernathy, Michael J. Copps, and Kevin J. Martin serve as Commissioners. One
seat is vacant. The majority of FCC employees are located in Washington, D.C.
FCC field offices and resident agents are located throughout the United States.
FCC headquarters staff are now housed in entirety in the Portals II building
located at 445 12th Street, S.W., Washington, D.C. 20554.

The Office of Inspector General (OIG) has dedicated itself to assisting the
Commission as it continues to improve its efficiency and effectiveness. The
Inspector General (IG) H. Walker Feaster III, reports directly to the Chairman.
The OIG staff consists of ten professionals and a student intern. Principal
assistants to the IG are: Thomas D. Bennett, Assistant Inspector General (AIG) for
Audits, Charles J. Willoughby, AIG for Investigations; and Thomas M. Holleran,
AIG for Policy & Planning. Mr.Willoughby also serves as counsel.

This semiannual report includes the major accomplishments and general activities
of the OIG during the period April 1, 2001 through September 30, 2001.
Semiannual Report to the Congress                                                  4


CHAPTER 1 - AUDITS

INTRODUCTION              This office has responsibility for conducting a wide range of
                          audit activity covering FCC programs and operations. This
                          activity includes such diverse areas as financial statement
                          audits required by the Chief Financial Officers Act of 1990
                          (CFO Act); government-wide audits coordinated by the
                          President’s Council on Integrity and Efficiency; audits of
                          agency compliance with laws and regulations; and performance
                          audits of FCC programs.


AUDIT                     Audit of Web Presence Security (Report No. 00-AUD-01-10,
REPORTS                   June 13, 2001)

                          The objective of this audit was to measure how successful the
                          Commission has been in securing its web portals. Specific
                          objectives were to:
                          • Determine if any conditions existed that could allow
                             external user or hacker to penetrate web server security and
                             cause possible harm to Commission assets;
                          • Ensure that the FCC is not vulnerable to known web-based
                             security attacks; and
                          • Identify vulnerabilities in the general controls over web-
                             based assets.

                          Based on our review, we determined that:
                          • The FCC had an active and generally effective program for
                             managing the security of the Commission’s web presence;
                          • The Commission has implemented numerous security
                             controls designed to protect and preserve its web-based
                             assets; and
                          • Although the Commission has implemented numerous
                             controls, we identified 38 findings - six high risk, 31
                             medium risk, and one low risk - that impact the
                             effectiveness of the Commission’s program.

                          We recommend that these findings be corrected to strengthen
                          the security of the Commission’s web presence.
Semiannual Report to the Congress                                                       5




                     The Commission’s Information Technology Center (ITC) responded
                     to its portion of the findings and recommendations. They concurred
                     with 28 of the 31 recommendations. One IG finding was eliminated
                     by mutual consent and two other findings ITC pointed out were
                     addressed by events that took place after audit fieldwork was
                     completed.

                     The Commission’s Wireless Telecommunications Bureau (WTB) has
                     indicated concurrence with each of the recommendations for the 20
                     findings that applied to the bureau. Of these 20 findings, WTB
                     reported that 15 were closed as of May 7, 2001.

                     Report on the Federal Communications Commission, Fiscal Year
                     2000, Financial Statements, June 27, 2001 (Report No. 00-AUD-09-
                     52)

                     At the direction of the Department of the Treasury, the Commission
                     prepared consolidated financial statements in accordance with Office
                     of Management and Budget (OMB) Bulletin No. 97-01, Form and
                     Content of Agency Financial Statements, as amended, and subjected
                     them to audit.

                     Consistent with the Chief Financial Officers Act of 1990 the OIG
                     contracted with an independent accounting firm, Clifton Gunderson,
                     LLP (CG-LLP), to audit the agency’s financial statements in
                     accordance with Government Auditing Standards issued by the
                     Comptroller General of the United States.

                     CG-LLP issued an unqualified opinion on FCC’s FY 2000
                     Consolidated Financial Statements. CG-LLP opined, the Principal
                     Statements and related notes present fairly, in all material respects, in
                     conformity with U.S. generally accepted accounting principles,
                     FCC’s assets, liabilities, and net position; net cost; changes in net
                     position; budgetary resources; reconciliation of net cost to budgetary
                     obligations and custodial activity as of September 30, 2000 and for
                     the year then ended.
Semiannual Report to the Congress                                                      6




                    In performing its testing of internal controls necessary to achieve the
                    objectives in OMB Bulletin No. 01-02, CG-LLP identified matters
                    relating to significant deficiencies in the design or operation of FCC’s
                    internal control that, in its judgment, adversely affect FCC’s ability to
                    record, process, summarize, and report financial data consistent with
                    the assertions by management in the financial statements.

                    CG-LLP identified material weaknesses in the areas of:
                    • Financial Reporting,
                    • Cost Accounting System,
                    • Universal Service Fund and Telecommunications Relay Service
                      Financial Reporting,
                    • Loans Receivable and Related Accounts, and
                    • Information Technology.

                    In addition CG-LLP identified additional reportable conditions not
                    considered to be material weaknesses.

                    FCC management is responsible for complying with laws and
                    regulations applicable to the agency. CG-LLP’s tests disclosed
                    instances of noncompliance with specific laws and regulations
                    required to be reported under Government Auditing Standards and
                    OMB Bulletin No. 01-02 as follows:

                    •   Chief Financial Officers Act of 1990,
                    •   Debt Collection Improvement Act of 1996,
                    •   Government Performance and Results Act of 1993, and
                    •   Federal Financial Management Improvement Act of 1996.

                    FCC management concurred with all recommendations and is taking
                    steps to implement the recommendations.

                    Special Review of Internet Privacy and Web Cookies (Report No. 01-
                    AUD-05-12, April 10, 2001)

SPECIAL             This review was required by Section 646 of the “Treasury and General
REVIEW              Government Act, 2001.” The general objectives of this review were to
REPORTS             evaluate Commission practices related to Internet Privacy and Web
                    Cookies and to provide a report to Congress on these practices.
Semiannual Report to the Congress                                                  7




                        Specific objectives of the review were to examine: 1) the purpose
                        and use of cookies on FCC web pages; 2) the use of other Internet
                        information collection devices, such as web bugs; 3) what
                        categories of information are collected on the FCC web site; 4)
                        what personal information is collected when people e-mail or
                        submit questions to the agency, including how this information is
                        protected; and 5) the distribution of personally identifiable
                        information to any party outside of government for any purpose.

                        During our limited review, we found that the Commission was
                        generally complying with federal privacy laws and regulations.
                        The FCC’s Chief Information Officer concurred in the OIG report
                        with minor edits.

                        FY 2001 Government Information Security Reform Act
                        Evaluation (September 5, 2001)

                        This evaluation was required under the Government Information
                        Security Reform Act (Security Act). The OIG contracted with
                        KPMG, LLP to perform the independent evaluation.

                        The purpose of this review was to perform an independent
                        assessment of FCC’s information security program and practices
                        to ensure proper management and security for the information
                        resources supporting the agency’s operations and assets as
                        required by the Security Act.

                        As of a result of the evaluation, we concluded that the
                        Commission has a generally effective information security
                        program with acceptable practices for managing and
                        safeguarding its information technology assets. However, during
                        the evaluation, some areas were identified for improvement in the
                        FCC’s     information security management, operational and
                        technical controls. Those issues are being addressed with FCC
                        management in a separate Special Review Report.
Semiannual Report to the Congress                                                  8




                         The independent evaluation has been incorporated into one
                         document with the Security Act report produced by the Chief
                         Information Officer (CIO). The combined report was submitted
                         to the Office of Management and Budget (OMB) on September
                         10, 2001.

                         Report on Verification of Global Management Systems, Inc.
                         Costs Incurred under Contract No. 2700-FCC-97-C-0014
                         (Changed to C-9800016) (Report No. 01-AUD-04-11, August 28,
                         2001)

                         At the request of the Commission’s Contracts and Purchasing
                         Center, we performed a review to verify costs incurred by Global
                         Management Systems, Inc. (GMSI) under a contract with the
                         FCC. The objective of the review was to verify costs incurred
                         and billed by GMSI under the contract from inception (January
                         1, 1997) through contract completion (December 31, 2000). The
                         review was performed under our interagency agreement with the
                         Defense Contract Audit Agency (DCAA). To accomplish the
                         objectives of the review DCAA auditors evaluated GMSI’s
                         internal controls and determined control risk; examined evidence
                         supporting the amounts and disclosures in the data and records
                         reviewed; assessed the accounting principles used and
                         significant estimates made; and evaluated GMSI’s overall data
                         and records presentation.

                         Based on the results of the review, we questioned $25,248 of the
                         $476,896 in costs incurred and billed by GMSI under the
                         contract. GMSI did not concur with our findings and has failed
                         to respond to a letter issued to them requesting a written
                         response. Management has not made a final determination as of
                         this report date.

                         Report on Pre-Award Accounting System Survey of Neu-Star,
PRE-AWARD                Inc. (Report No. 01-AUD-07-24, April 25, 2001)
SURVEY
REPORT                   At the request of the Commission’s Contracts and Purchasing
                         Center, we conducted a pre-award accounting system survey of
                         NeuStar, Inc. (NeuStar). The objective of this survey was to
Semiannual Report to the Congress                                                     9




                        determine whether NeuStar’s accounting system would adequately
                        accumulate, segregate, and report costs under prospective
                        Government contracts.

                        This survey was performed under our interagency agreement with
                        the DCAA. To accomplish the objective of this survey, DCAA
                        auditors evaluated NeuStar’s accounting system internal controls
                        associated with identifying, accumulating, and reporting direct
                        and indirect costs; identifying and segregating unallowable costs;
                        maintaining adequate timekeeping and labor distribution systems;
                        and supporting billings based on cost information from currently
                        posted data.

                        Based on the survey, we found NeuStar’s accounting system to be
                        adequate for accumulating, segregating, and reporting costs
                        under prospective government contracts.

FLOORCHECK              OIG continued its practice of performing unannounced
REPORTS                 floorchecks of selected FCC contractors. The objective of a
                        floorcheck is to evaluate labor charging and timekeeping
                        practices. These were performed by the DCAA under our
                        interagency agreement with them. The following floorchecks
                        were performed during this period:


                        Report on Audit of Labor Charging and Timekeeping Practices
                        of Vistronix, Inc. (Report No. 01-AUD-07-25, June 5, 2001)

                        We identified the following instances of Vistronix, Inc. (Vistronix)
                        employee deficiencies with timekeeping requirements:


                        •   Hours recorded in advance,
                        •   No explanation for timesheet error correction,
                        •   No work authorization document, and
                        •   Employees were unaware of the FCC OIG Hotline.

                        Vistronix concurred with the findings and promptly implemented
                        corrective measures. We consider their corrective actions to be
Semiannual Report to the Congress                                                    10




                        adequate.

                        Report on Audit of Labor Charging and Timekeeping Practices
                        of AAC Associates, Inc. (Report No. 01-AUD-07-26, June 5,
                        2001)

                        We identified the following instances of AAC Associates, Inc.
                        (AAC) employee deficiencies with timekeeping requirements:

                        •   Timesheets were not adequately controlled,
                        •   No explanation for timesheet error correction,
                        •   No work authorization document, and
                        •   Employees were unaware of the FCC OIG Hotline.

                        AAC concurred with the findings and promptly implemented
                        corrective measures. We consider their corrective actions to be
                        adequate.

                        OIG reports can generally be obtained via the internet from the
REPORT
                        OIG website www.fcc.gov/oig. However, OIG reports containing
AVAILABILITY
                        sensitive or proprietary information will be restricted to specific
                        individuals and organizations with a need to know the detailed
                        information.
Semiannual Report to the Congress                                                    11




ONGOING                 Audit of the Commission’s FY 2001 Financial Statement
ACTIVITY
                        This audit is being performed as part of our continuing effort to
                        support management efforts to align the FCC’s financial
                        accounting and reporting systems with applicable accounting
                        principles and standards, federal laws and regulations, and policy
                        guidance. This is important both internally to the Commission’s
                        operations and necessary in support of the audit of the
                        Consolidated Financial Statements of the United States. The
                        Department of the Treasury requests “non-CFO” agencies, such
                        as the FCC, to annually verify financial data submissions
                        recorded in its Federal Agencies’ Centralized Trial-Balance
                        System II (FACTS). In response to this request, the FCC prepares
                        financial statements in accordance with Generally Accepted
                        Accounting Principles (GAAP) for the Federal Government to
                        facilitate verification of its FACTS transmissions.

                        The objective of this audit is to provide an opinion on the FY 2001
                        financial statements. With the assistance of an independent public
                        accounting firm, the OIG plans to continue initiatives to address
                        reengineering financial management at the FCC. Specific tasks
                        will include performing procedures necessary to comply with OIG
                        audit and verification requirements from OMB and the
                        Department of the Treasury, respectively. Follow-up procedures
                        will address any identified material weaknesses and reportable
                        conditions from the FY 2000 audit.

                        Audit of the Commission’s Implementation of GPRA

                        The Government Performance and Results Act of 1993 (GPRA) is
                        intended to improve the efficiency and effectiveness of federal
                        programs through the establishment of specific goals for program
                        performance. Specifically, the Act requires the FCC to prepare
                        multi-year Strategic Plans, Annual Performance Plans, and an
                        Annual Performance Report to be issued by March 31 annually,
                        with a first-ever Performance Report to be issued by March 31,
                        2000. The Director, Office of Management and Budget, has
                        called upon Inspectors General to “assess agencies’ technical
                        compliance with the Results Act as well as their capacity to
Semiannual Report to the Congress                                                    12




                comply from a data and systems perspective.”

                On March 26, 1999, the OIG issued an audit report entitled “Report on
                Audit of the Federal Communications Commission Implementation of the
                Government Performance and Results Act (GPRA).” In that report, the
                OIG provided the Chairman with our initial analysis of Commission
                activity towards meeting the initial GPRA mandated requirements. The
                report identified the need to more clearly define specific outcome-oriented
                performance goals to serve as the basis for the March 31, 2000 Annual
                Performance Report. The objective of this audit is to identify measures
                taken to address the findings in our initial report and to independently
                review and assess the Commission’s Strategic Plan and initial Annual
                Performance Report. Fieldwork on this audit was initiated in June 2000.

                Audit of Financial Management of Auction Proceeds

                This audit is being conducted as part of our continuing effort to support
                management efforts to align the FCC’s financial accounting and reporting
                systems with applicable accounting principles and standards, federal laws
                and regulations, and policy guidance.               The Omnibus Budget
                Reconciliation Act of 1993, as amended on August 10, 1993, added a new
                section 309(j) to the Communications Act of 1934. This amendment to the
                Communications Act gave the FCC express authority to employ
                competitive bidding procedures to choose from among mutually exclusive
                applications for initial licenses. In addition to providing the Commission
                authority to auction licenses, the amendment gave the Commission the
                authority to receive reimbursement for the cost of implementing this
                means of allocating spectrum.

                The Managing Director requested this audit in response to our request for
                input into the FY 2001 Audit Plan. In his request, the Managing Director
                asked the OIG to explore the “reasons for two separate procedures, staff
                and processes.” The primary objective of this review is to evaluate the
                possible duplication of operations performed within the Wireless
                Telecommunications Bureau (WTB) and the Office of the Managing
                Director (OMD). As part of the review, we intend to evaluate the need for
                two separate budget procedures, staff and processes for preparing budget
                authorization(s), and reporting the use of proceeds. The objective of our
Semiannual Report to the Congress                                                    13




                review is to assess the effects, if any, of duplicating activities and
                functions. Fieldwork on this audit was initiated in August 2001.

                Audit of Loan Portfolio and Related Activity

                The Federal Communications Commission has a loan portfolio comprised
                of approximately 2,000 installment payment plans. In recent years, the
                portfolio received increased scrutiny due to its materiality on the FCC’s
                financial statements. On the fiscal year (FY) 2000 Consolidated Balance
                Sheet, these loans comprised 66 % and 63 % of FCC assets and liabilities,
                respectively. To mitigate concerns regarding past contractor operations
                and to prepare auditable balances, the Commission contracted with a
                public accounting firm to review and recalculate loan balances since
                inception. Although this action resulted in significant changes to internal
                control, loan balances, and source documentation, several recent changes
                affect the internal control associated with FCC’s loan activity. In FY
                2000, FCC contracted with a loan service provider to manage and
                maintain its loan portfolio. In addition, FCC developed and partially
                implemented the Revenue Accounting and Management Information
                System (RAMIS), which is planned to become the system of record for
                FCC’s loan activity in the future. During FY 2000, the Financial
                Operations office reorganized and reassigned responsibilities impacting
                the loan environment.

                The primary objective of the audit is to assess the transition of the
                portfolio from FCC to a loan service provider environment. Fieldwork on
                this audit was initiated in August 2001.

                Audit of the Commission’s Transit Subsidy Program

                This audit was initiated at the request of the Office of Managing Director
                (OMD). The objective of the audit is to evaluate the Commission’s Transit
                Subsidy Program to ensure that program controls are adequate to detect
                and prevent fraud, waste, and abuse. To accomplish the audit objective,
                the OIG will assess the policies and procedures issued by the Commission
                for the transit subsidy benefit program for compliance with applicable
                regulations and union agreements. In addition, we will test the internal
                controls the Commission has established to ensure compliance with the
Semiannual Report to the Congress                                                      14




                program requirements and test employee compliance with the program
                participation requirements. Based on the results of our review of policies
                and procedures and program testing, we will reach an overall opinion as
                to the program’s control system and compliance with requirements and
                identify areas where operational improvements can be made. Fieldwork
                on this audit was initiated in March 2001.

                Follow-up Audit of Consumer Center Information Technology (IT)
                Security

                On June 21, 2000, the OIG issued a Special Review Report, entitled
                “Report on Audit of Computer Controls at the FCC National Call
                Center,” summarizing the results of our review of Information Technology
                (IT) at the Commission’s Consumer Center located in Gettysburg, PA. In
                that report, we noted that significant technical control and internal control
                improvements could be made to improve the overall security posture of the
                Consumer Center. The report contained 103 specific observations in the
                area of internal controls including: Security Program Planning and
                Management, Access Controls, Application Software Development and
                Change Controls, System Software, Segregation of Duties, and Service
                Continuity. Accordingly, the review team concluded that the computer
                system general controls as implemented at the Consumer Center are not
                sufficient to meet minimum security requirements.

                The objectives of this audit are to: (1) follow-up on specific observations
                identified in our Report to ensure appropriate corrective actions have
                been implemented; and, (2) evaluate the information systems security
                posture of the Consumer Center. This follow-up review will serve to
                assess the Commission’s efforts to address audit observations and
                recommendations contained in this program area. Fieldwork on this
                follow-up audit was initiated in September 2001.

                Pilot Audit of Universal Service Fund (USF) Recipient

                During FY 2001, the OIG worked closely with representatives from the
                Common Carrier Bureau (CCB), OMD, DCAA, and USAC, to develop a
                comprehensive program for auditing the recipients of Schools and
                Libraries funding. We designed the program to provide the Commission
                with systematic insight into the compliance with rules and requirements on
Semiannual Report to the Congress                                                      15




                the part of the beneficiaries and those vendors providing goods and
                services. Our program is comprised of two corollary and complimentary
                efforts. First, we will conduct audits at a sample of beneficiaries large
                enough to allow us to derive conclusions regarding beneficiary
                compliance at the program level. Second, we will establish a process for
                vigorously investigating allegations of fraud, waste, and abuse in the
                program.

                To implement the audit component of our program, we have been working
                closely with DCAA to design a nationwide audit program that allows us to
                derive conclusions regarding beneficiary compliance at the program level
                based upon the results of audits at selected recipients. At our direction,
                DCAA statisticians have analyzed the database of fund beneficiaries and
                designed an audit sample that reflects the characteristics of the universe of
                beneficiaries. In addition, DCAA has developed a risk assessment process
                and a standard audit program for use by field auditors. As part of the
                process of developing our audit program, we determined that it was
                necessary to conduct a pilot audit of a recipient of Schools and Libraries
                funding.

                 In September 2001, we initiated an audit of the Edgemeade School of
                Maryland (Edgemeade), a recipient of $174,826 in schools and libraries
                funding during year 2 of the program. The objective of audit is to
                determine if: (1) Edgemeade spent the funds on approved goods and
                services; (2) Edgemeade uses the equipment for its intended purpose; (3)
                the vendor procurement process complies with FCC/local requirements,
                results in adequate competition, and ensures that the approved goods and
                services are provided, and; (4) Edgemeade’s application is accurate and
                the discount percentage is correct. The final audit program for schools
                and libraries fund recipient audits will be updated to reflect “lessons
                learned” during this pilot audit.

                Special Review of the Commission’s Workplace Violence Program

                Preventing workplace violence is a growing concern in the United States
                and is a frustrating problem facing federal agencies today. Workplace
                violence can adversely impact the economy, efficiency, and effectiveness of
                organization operations and raises profound concerns about the safety of
                employees and public conducting business with the government. In fact,
Semiannual Report to the Congress                                                     16




                according to a recent document prepared by the U. S. Department of
                Labor, approximately 2,000,000 people throughout the country are victims
                of non-fatal violence at the workplace every year. The Department of
                Justice reports that violence is the leading cause of fatal injuries at work
                with about 1,000 workplace homicides each year. Although the OIG and
                Commission have evaluated aspects of the workplace violence program,
                the OIG has not examined other critical portions of the program or
                assessed the overall effectiveness of the program.

                The objective of this Special Review is to conduct a risk assessment of the
                FCC’s workplace violence program. This risk assessment will consider
                all aspects of the Commission’s workplace violence program. The risk
                assessment will be accomplished by examination and evaluation of FCC
                policies and procedures, review of prior security and security-related
                studies and reports, interviews with appropriate FCC management and
                staff, comparisons to appropriate benchmarks and “best practices”, and
                other evaluation tools the contractor identifies as useful and relevant.
                Fieldwork on this Special Review was initiated in May 2001.
Semiannual Report to the Congress                                                   17




CONSULTING              OIG personnel provide a wide variety of consulting and advisory
& ADVISORY              services to the Commission. Consulting and advisory services
SERVICES                range from formal review of a matter resulting in a written report
                        to informal discussion and comment. During this semiannual
                        reporting period, OIG personnel provided consulting and
                        advisory services in the areas of financial management,
                        management of information technology, procurement, and
                        Commission programs and operations.

                        Consumer Centers

                        OIG staff met with representatives from the Consumer
                        Information Bureau (CIB) several times during the reporting
                        period to provide advice on actions taken by the FCC Consumer
                        Centers. Topics discussed included audit advice on contracting
                        for consumer center staff in terms of cost efficiency and program
                        performance, the reporting and tracking of consumer center
                        performance statistics, and other CIB initiatives for customer
                        call-taking and information system improvements. We will
                        continue to provide consultation to CIB upon their request and
                        will utilize these discussions in future audit planning.

                        Contracts and Purchasing

                        In the OIG’s efforts to provide comprehensive contract audit
                        services to the FCC’s Contracts and Purchasing Center, the OIG
                        also advises the Commission’s contracting officers (COs) on
                        contract and contractor financial and performance matters that
                        do not require contract audits. For example, during the reporting
                        period, audit staff advised the Manager of the Commission’s
                        Contracts and Purchasing Center on a final billing question. We
                        advised that, even though claimed subcontractor costs were over
                        one year old, the contractor was still entitled to payment.
                        However, we also recommended that the Contracts and
                        Purchasing Center should request the OIG to audit contractors’
                        final billings in order to close out completed contracts.
Semiannual Report to the Congress                                                   18




                        Systems Development Life Cycle

                        Auditors from the OIG are working closely with Commission
                        personnel in the use of the Systems Development Life Cycle
                        (SDLC). OIG auditors participated with representatives from the
                        FCC’s Information Technology Center (ITC) and the
                        International Bureau (IB) on the development of new systems and
                        the enhancement of current systems.

                        Universal Service Fund (USF)

                        OIG management and staff have been heavily involved in
                        providing audit advice and guidance on the USF to numerous
                        offices during the reporting period. We have met with the OMD,
                        the Office of General Counsel (OGC), CCB, and the program
                        administrator, the Universal Service Administrative Company
                        (USAC) on numerous occasions. These consulting services were
                        provided as part of our on-going oversight of the USF.

                        The topics where we have provided assistance in the current
                        reporting period include coordinating audit plans with USAC’s
                        auditors, legal and audit ramifications on such outstanding issues
                        as financial statement presentation and investigative support,
                        administrative and programmatic revisions initiated by USAC,
                        and rulings and guidance promulgated by CCB.

                        Web Accessibility

                        The OIG provided advisory and assistance service to the
                        Commission and other Inspectors General on Web Accessibility.
                        Web accessibility refers to the ability of individuals with
                        disabilities in providing access by the disabled to Internet web
                        sites. OIG staff attended working sessions on web accessibility
                        with Bureaus and Offices and shared best practices on web
                        accessibility from other federal agencies and subject matter
                        experts. Also, OIG staff provided technical advise on web
                        accessibility to the Inspector General, Appalachian Regional
                        Commission.
Semiannual Report to the Congress                                                 19




                        Financial Management

                        OIG provided responses to the Department of the Treasury,
                        Financial Management Service’s (FMS) United States
                        Government Standard General Ledger Questionnaire. FCC’s
                        Chief Financial Officer requested that the OIG respond to the
                        questions from an audit perspective as requested by FMS. OIG
                        financial management staff provided the completed questionnaire
                        to Financial Operations personnel which forwarded a
                        consolidated FCC responses to FMS’ United States Standard
                        General Ledger Branch.

                        OIG provided comments and observations on FCC’s process for
                        closing its imprest funds in accordance with Department of the
                        Treasury guidelines. FCC’s Chief Financial Officer requested the
                        OIG review and comment on FCC’s plans, notifications, and
                        procedures prior to implementation. The OIG provided its
                        comments and observations via four attachments to the draft
                        documentation submitted for review.

                        OIG continued advisory service to FCC’s financial statement
                        compilation. The OIG continues to provide advisory service and
                        assistance to FCC financial management staff in this area.
                        Recent topics include implementation of OMB Bulletin No. 01-09,
                        Form and Content of Agency Financial Statements (revised) and
                        OMB Bulletin No. 01-02, Audit Requirements for Federal
                        Financial Statements.

                        OIG also continued advisory service to FCC’s Federal Agencies’
                        Centralized Trial-Balance (FACTS) team.          OIG financial
                        management staff continues to provide advisory and assistance to
                        FCC regarding FACTS in order to meet Department of the
                        Treasury requirements in the Treasury Financial Manual (TFM).
                        Recent topics include complying with the TFM requirement for
                        reconciliation and confirmation of Federal intra-governmental
                        balances.
 Semiannual Report to the Congress                                                     20




SPECIFIC REPORTING
REQUIREMENTS of the
INSPECTOR GENERAL ACT
The following summarizes the Office of Inspector General response to the twelve specific
reporting requirements set forth in Section 5(a) of the Inspector General Act of 1978, as
amended.

1. A description of significant problems, abuses, and deficiencies relating to the
   administration of programs and operations of such establishment disclosed by such
   activities during the reporting period.

No such problems, abuses or deficiencies were disclosed during the reporting period.

2. A description of the recommendations for corrective action made by the Office during the
   reporting period with respect to significant problems, abuses, or deficiencies identified
   pursuant to paragraph (1).

No recommendations were made. See the response to paragraph (1).

3. An identification of each significant recommendation described in previous semiannual
   reports on which corrective has not been completed.

No significant recommendations remain outstanding.

4. A summary of matters referred to prosecutive authorities and the prosecutions and
   convictions which have resulted.

One case associated with the Commission’s Universal Services program has been referred to
the Department of Justice.

5. A summary of each report made to the head of the establishment under section (6)(b)(2)
   during the reporting period.

No report was made to the Chairman of the FCC under section (6)(b)(2) during the reporting
period.
 Semiannual Report to the Congress                                                       21




6. A listing, subdivided according to subject matter, of each audit report issued by the Office
   during the reporting period, and for each audit report, where applicable, the total dollar
   value of questioned costs (including a separate category for the dollar value of
   unsupported costs) and the dollar value of recommendations that funds be put to better
   use.

Each audit report issued during the reporting period is listed according to subject matter and
described in part II, above.

7. A summary of each particularly significant report.

Each significant audit and investigative report issued during the reporting period is
summarized within the body of this report.

8. Statistical tables showing the total number of audit reports with questioned costs and the
   total dollar value of questioned costs.

The required statistical table can be found at Attachment A to this report.

9. Statistical tables showing the total number of audit reports with recommendations that
funds be put to better use and the total dollar value of such recommendations.

The required statistical table can be found at Attachment B to this report.

10. A summary of each audit report issued before the commencement of the reporting period
for which no management decision has been made by the end of the reporting period
(including the date and title of each such report), an explanation of the reasons such
management decision has not been made, and a statement concerning the desired timetable for
achieving a management decision on each such report.

No audit reports fall within this category.

11. A description and explanation of the reasons for any significant revised management
decision made during the reporting period.

No management decisions fall within this category.
Semiannual Report to the Congress                                                22




12. Information concerning any significant management decision with which the Inspector
general is in disagreement.

No management decisions fall within this category
Semiannual Report to the Congress                                                             23



                                                                         ATTACHMENT A

     Table I. OIG Audit Reports With Questioned Costs



     Inspector General Reports                           Number    Questioned   Unsupported
     With Questioned Costs                                 of       Costs          Costs
                                                         Reports


     A. For which no management decision has been          3       $1,064,276    $253,453
        made by the commencement of the reporting
        period.

     B. Which were issued during the reporting period.      1                      25,248



                      Subtotals (A + B)                     4      $1,064,276    $278,701



     C. For which a management decision was made            0
        during the reporting period.


        (i) Dollar value of disallowed costs



        (ii) Dollar value of costs allowed



     D. For which no management decision has been           4      $1,064,276    $278,701
        made by the end of the reporting period.


       Reports for which no management decision was         3      $1,064,276    $253,453
       made within six months of issuance.
Semiannual Report to the Congress                                                      24



                                                                      ATTACHMENT B

     Table II. OIG Audit Reports With Recommendations That Funds
          Be Put To Better Use

     Inspector General Reports With                       Number of     Dollar Value
     Recommendations That Funds Be Put To                  Reports
     Better Use
     A. For which no management decision has been made        0              0
         by the commencement of the reporting period.

     B. Which were issued during the reporting period.        0              0


                       Subtotals (A + B)                      0              0


     C. For which a management decision was made              0              0
         during the reporting period.

        (i) Dollar value of recommendations that were
             agreed to by management.

             - Based on proposed management action.


             - Based on proposed legislative action.



         (ii) Dollar value of recommendations that were
              not agreed to by management.

     D. For which no management decision has been made        0              0
         by the end of the reporting period.

        For which no management decision was made             0              0
        within six months of issuance.
Semiannual Report to the Congress                                                     25


CHAPTER 2—INVESTIGATIONS


OVERVIEW                  Investigative matters pursued by this office are generally
                          initiated as a result of allegations received directly through the
                          OIG hotline or from FCC managers and employees who contact
                          the OIG directly. Investigations may also be predicated upon
                          audit or inspection findings of fraud, waste, abuse, corruption,
                          or mismanagement by FCC employees, contractors, and/or
                          subcontractors.      Upon receipt of an allegation of an
                          administrative or criminal violation, the OIG usually conducts a
                          preliminary inquiry to determine if an investigation is
                          warranted. Investigations may involve possible violations of
                          regulations regarding employee responsibilities and conduct,
                          federal criminal law, and other regulations and statutes
                          pertaining to the activities of the Commission. Investigative
                          findings may lead to criminal or civil prosecution, or
                          administrative action.

                          The OIG also receives complaints from the general public, both
                          private citizens and commercial enterprises, about the manner
                          in which the FCC executes its programs and oversight
                          responsibilities. All complaints are examined to determine
                          whether there is any basis for OIG audit or investigative action.
                          If nothing within the jurisdiction of the OIG is alleged, the
                          complaint is usually referred to the appropriate FCC bureau or
                          office for response directly to the complainant. A copy of the
                          response is also provided to the OIG. Finally, matters may be
                          referred to this office for investigative action from other
                          governmental entities, such as the General Accounting Office,
                          the Office of Special Counsel or congressional offices.
Semiannual Report to the Congress                                                      26




ACTIVITY           Five cases were pending from the prior period. An additional 17
                   complaints were received during the reporting period. Over the last six
                   months 11 cases have been closed. Of those cases, two were
                   determined to be outside the jurisdiction of this office and were referred
                   to law enforcement entities for criminal investigation. 11 cases are still
                   pending. All of those 11 involve the Commission’s Universal Service
                   Fund program. They have been referred to the Federal Bureau of
                   Investigation, and the investigations are ongoing. The OIG continues to
                   monitor and coordinate activities regarding these investigations.



STATISTICS

                                     Cases pending as of         5
                                      March 31, 2001




                                    New Cases                    17




                                    Cases Closed                 11




                                    Cases pending as of          11
                                    September 30, 2001
Semiannual Report to the Congress                                                   27



                         •   The OIG initiated an inquiry into allegation of improper use
SIGNIFICANT
                             of a FCC employee’s name to acquire government rate for
CASE
                             hotel room in conjunction with a government-sponsored
SUMMARIES
                             event. The OIG found no evidence of employee misconduct.
                             The investigation revealed that another person who was
                             legitimately attending the event had the same name of the
                             Commission employee and the acquisition of the government
                             rate under the circumstance was appropriate. Accordingly,
                             the matter was closed.

                         •   The OIG initiated an inquiry into allegation that Commission
                             employees in the performance of their official duties, among
                             other things, failed to perform legal obligations, apply law
                             and did not process pleadings filed by an organization . The
                             OIG found no evidence of employee misconduct. It was
                             determined that employees performed their duties as part of
                             administrative authority and while decisions may have been
                             erroneous or not rendered expeditiously, such actions did not
                             constitute misconduct, and the matter was closed.

                         •   The OIG conducted an inquiry into a referral to the FBI by a
                             FCC employee of an allegation by a citizen of possible
                             illegal wiretapping by citizen’s former employer. The OIG
                             found no evidence of misconduct in light of the lack of
                             authority by the Commission to conduct criminal
                             investigations. The matter was closed.

                         •   The OIG conducted an investigation into alleged improper
                             conduct by an employee who attended an “ ex parte”
                             meeting.     The alleged conduct consisted of employee
                             agreeing not to disclose information presented as part of an
                             “ex parte” presentation. The presenters submitted an “ex
                             parte” filing generally outlining the information presented.
                             Through investigation, the OIG found insufficient evidence to
                             substantiate the allegations and consequently concluded that
                             no misconduct occurred. The matter was closed.

                         •   The OIG conducted an inquiry into allegations of misconduct
                             by employees in a Commission field office. The alleged
                             misconduct concerned misuse of Commission phones and
                             vehicles, and time and attendance irregularities. Through
Semiannual Report to the Congress                                                    28




                            investigation, the OIG determined that the alleged conduct
                            was deminimis, did not violate applicable standards of
                            conduct and thus did not rise to the level of fraud, waste or
                            abuse constituting misconduct.

                        •   The OIG conducted an inquiry into allegations of improper
                            conduct by the Commission concerning the Commission’s
                            administrative consideration of a particular matter. It was
                            determined that the alleged conduct was policy related and
                            pertained to the merits of a pending administrative matter,
                            and thus did not fall within the jurisdiction of the OIG.

                        •   The OIG conducted an inquiry into allegations that an
                            employee had improperly leaked information that had not
                            been publicly released concerning a matter that was under
                            consideration by the Commission. The information, which
                            was contained in a draft final decision of the Commission,
                            was allegedly disclosed or released while the draft was
                            being circulated among Commissioners.            The OIG
                            determined that the information was disclosed in the course
                            of meetings between Commission personnel and
                            representatives of the party to the proceeding. Further, it
                            was determined that the information was disclosed for the
                            purpose of eliciting a response from the party to a
                            particular allegation. Based on the circumstances of the
                            disclosure, the OIG found no evidence of misconduct and
                            the matter was closed.
Semiannual Report to the Congress                                                    29


CHAPTER 3 - IG HOTLINE


HOT LINE CALLS            The OIG Hotline is manned by a trained Hotline Technician
                          who provides calling parties with assistance in the processing of
                          their complaints.

                          During this reporting period, the OIG Hotline numbers, (202)
                          418-0473 and (888) 863-2244, received approximately 750
                          calls. About 80% of these calls were referred to the FCC’s
                          Consumer Center in Gettysburg, Pennsylvania for appropriate
                          handling. The remaining calls, except for a small number, were
                          referred to other Federal, state, or local agencies. The small
                          number of calls that fall within the purview of this Office
                          received from the Hotline, plus direct calls to the Inspector
                          General and the AIG for Investigations, are processed in
                          accordance with established investigative standards.
Semiannual Report to the Congress                                                    30


CHAPTER 4 - LEGISLATION


OVERVIEW                 Pursuant to section 4(a)(2) of the Inspector General Act of 1978
                         (IG Act), as amended, our office monitors and reviews existing
                         and proposed legislative and regulatory items for their impact on
                         the Office of the Inspector General and the Federal
                         Communications Commission programs and operations.
                         Specifically, we perform this activity to evaluate their potential
                         for encouraging economy and efficiency and preventing fraud,
                         waste, and mismanagement.

ACTIVITY                 The Counsel to the IG continued to monitor legislative activities
                         affecting the activities of the OIG and the FCC.

                         During this period, this office continued to monitor those
                         legislative proposals which directly or indirectly impact on the
                         ability of Designated Federal Entity IGs to function
                         independently and objectively.          Those specific proposals
                         concerned proposals to consolidate OIGs and to directly and/or
                         indirectly draw distinctions between presidentially– appointed
                         IGs and Designated Federal Entity IGs, which may have the
                         effect of undermining the role of the latter.
Semiannual Report to the Congress                                     31




  Report Fraud, Waste or Abuse to:
  Office of the Inspector General
  Federal Communications Commission




                                    CALL

                       Hotline: 202/418-0473
                                      or
                           888/863-2244 Toll Free
                                      or

                      http://www.fcc.gov/oig/


                          You are always welcome to write or visit.




                              Federal Communications Commission
                                                 Portals II Building
                                445 12th St., S.W.—Room #2-C762
